 Report No. D-2008-112          July 28, 2008




       Independent Auditor's Report
on Management's Assertion of Audit Readiness
        for Line 3.A., Appropriation,
   Reported in the Air Force General Fund
 Combined Statement of Budgetary Resources
Additional Copies

To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest ideas for or to request future audits, contact the Office of the Deputy Inspector
General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703) 604-8932. Ideas
and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                       400 Army Navy Drive (Room 801)
                       Arlington, VA 22202-4704
                                 INSPECTOR GENERAL
                               DEPARTMENT OF DEFENSE
                                400 ARMY NAVY DRIVE
                           ARLINGTON, VIRGINIA 22202-4704




                                                                            July 28, 2008

MEMORANDUM FOR ASSISTANT SECRETARY OF THE AIR FORCE
                (FINANCIAL MANAGEMENT AND COMPTROLLER)
               DIRECTOR, DEFENSE FINANCIAL AND ACCOUNTING
                SERVICE


SUBJECT: Independent Auditor's Report on Management's Assertion of Audit
         Readiness for Line 3.A, Appropriation, Reported in the Air Force General
         Fund Combined Statement of Budgetmy Resources
         (Report No. D-2008-ll2)



        We are providing this report for information and use. No written response to this
report is required. Therefore, we are publishing this report in final form.

       We appreciate the courtesies extended to the staff. Please direct questions to
Ms. Amy J. Frontz at (303) 676-7392 (DSN 926-7392) or Mr. M. James Herbie at
(303) 676-3280 (DSN 926-3280). The team members are listed inside the back cover.



                                /~(I!J1~
                               Patricia A. Marsh, CPA
                             Assistant Inspector General
                          Defense Financial Auditing Service
Table of Contents

Independent Auditor’s Report                                                 1

Appendix. Supplementary Information
            Management’s Assertion of Audit Readiness                        3
            Criteria to Evaluate Management’s Assertion of Audit Readiness   3
            Validation of Management’s Assertion of Audit Readiness          4
                                   INSPECTOR GENERAL
                                 DEPARTMENT OF DEFENSE
                                  400 ARMY NAVY DRIVE
                             ARLINGTON, VIRGINIA 22202-4704




                                                                                July 28, 2008

MEMORANDUM FOR ASSISTANT SECRETARY OF THE AIR FORCE
                (FINANCIAL MANAGEMENT AND COMPTROLLER)

SUBJECT: Independent Auditor's Report on Management's Assertion of Audit
         Readiness for Line 3.A, Appropriation, Reported in the General Fund
         Statement of Budgetary Resources (Report No. D-2008-112)


We have examined management's assertion of audit readiness, revised March 8, 2007,
for Air Force General Fund Appropriation, reported on line 3.A of its Combined
Statement of Budgetary Resources. Air Force management is responsible for its assertion
of audit readiness. The engagement memorandum executed December 8, 2007, between
the Air Force and the Inspector General, Department of Defense, sets forth the following
criteria for the assertion of audit readiness. Air Force is responsible for: the selection
and application of appropriate generally accepted accounting principles to present line
3.A, Appropriation, fairly; the design and implementation of adequate internal controls
over financial reporting, including the prevention and detection of fraud; the
identification of applicable laws and regulations affecting appropriations and
implementation of compliance controls related thereto; providing auditors with sufficient
appropriate evidence on a timely basis to complete the examination; and demonstrating
its ability to sustain audit readiness in fliture periods. Our responsibility is to express an
opinion on management's assertion of audit readiness based on our examination.

We conducted our examination in accordance with attestation standards established by
the American Institute of Certified Public Accountants and generally accepted
govemment auditing standards as stated in the Government Accountability Office's
"Government Accounting Standards." These standards require examining, on a test
basis, evidence supporting management's asseliion of audit readiness for line 3.A,
Appropriation, in the General Fund Combined Statement of Budgetaty Resources and
performing such other procedures as we considered necessary in the circumstances. We
believe that our examination provides a reasonable basis for our opinion on
management's assertion. Our objective was not to express an opinion on the balance of
line 3.A, Appropriation, as of any specific point in time.

In our opinion, management's assertion of audit readiness for line 3.A, Appropriation,
reported in the Air Force General Fund Combined Statement of Budgetary Resources, is
fairly stated in all material respects, based on management having met its assertion
responsibilities stated above.
This report is intended solely for the information and use of the Assistant Secretary of the
Air Force (Financial Management and Comptroller) and Director, Defense Finance and
Accounting Service, and is not intended to be and should not be used by anyone other
than the specified parties. However, this report is a matter of public record and its
distribution is not limited.




                                t~tlJ!~
                                Patricia A. Marsh, CPA
                              Assistant Inspector General
                           Defense Financial Auditing Service




                                             2
      Appendix. Supplementary Information

Management’s Assertion of Audit Readiness

The Office of the Under Secretary of Defense (Comptroller) established certain business
rules under its Financial Improvement and Audit Readiness plan in 2004. It revised these
rules in 2007. Components of the Department of Defense measure progress under the
plan by making improvements in business segments related to financial reporting and
receiving validation that each improved business segment is ready for audit. The
Components must sustain audit readiness for business segments validated. Air Force and
Defense Financial and Accounting Service management prepared a formal written
assertion of audit readiness for line 3.A, appropriation, as reported in the Air Force
General Fund Combined Statement of Budgetary Resources. Management’s assertion, as
revised March 8, 2007, was the subject of our attestation examination.

Defense Finance and Accounting Service Denver (DFAS) provides finance and
accounting support to the Air Force. DFAS accumulates and processes Air Force
General Fund appropriations for reporting in the Statement of Budgetary Resources.
During FY 2007, the Congress enacted 16 direct appropriations ($144.1 billion) for Air
Force activities, and Air Force received indirect appropriations for the Medicare Eligible
Retiree Healthcare Fund ($2.8 billion) and Environmental Restoration fund ($.4 billion).
In addition, Air Force received funds in one special fund, the Cadet Fund, and one trust
fund, the Wildlife Conservation Fund. For the year ended September 30, 2007, the Air
Force reported $147.7 billion on line 3.A, Appropriation, in the Combined Statement of
Budgetary Resources for the Air Force General Fund. DoD FMR, volume 6B, chapter 7
defines this line as the amount of appropriations specified in appropriation acts or
substantive laws that become available for obligation on or after October 1 of the fiscal
year.

Criteria to Evaluate Management’s Assertion of Audit Readiness

The Air Force Deputy Assistant Secretary Financial Operations (Financial Management)
and the Assistant Inspector General, Defense Financial Auditing Service, executed an
engagement memorandum for the attestation of the Air Force line 3.A, Appropriation,
(Statement of Budgetary Resources, section 3, Budget Authority, line 3.A.
Appropriation) Audit Readiness Assertion. This memorandum set forth certain Air Force
responsibilities, which are the criteria for our validation of its assertion.

        a. Management is required to present fairly, in all material respects, the amount
and any appropriate footnote disclosures for line 3.A, Appropriation, in conformity with
generally accepted accounting principles. This requirement is an integral part of
management’s responsibility. Implicit in this responsibility is management’s ability to
select and apply appropriate generally accepted accounting responsibilities for
appropriations. In addition, the planned financial statement presentation and footnotes
for line 3.A, Appropriation, must be: (1) informative of matters that may affect their use,
understanding, and interpretation by a user, (2) classified and summarized in a reasonable
manner, and (3) a proper reflection of the underlying transactions and events that presents
financial position, costs and changes in net position, and budgetary resources activity
within limits that are reasonable and practicable for the financial statements.

        b. Management is responsible for adopting sound accounting policies and for
establishing and maintaining internal controls that will initiate, record, process, and report
                                              3
transactions (as well as events and conditions) that are consistent with management’s
assertions of existence, completeness, valuation and allocation, rights and obligations,
and presentation and disclosure embodied in the financial statements. Management must
document its internal controls over financial reporting for line 3.A, Appropriation, review
the design effectiveness, and test the operating effectiveness of such controls. There
should not be any significant deficiencies or material weaknesses in internal controls over
financial reporting for line 3.A, Appropriation.

        c. In addition to reliability of financial reporting, effective internal controls are
designed to provide reasonable assurance of compliance with applicable laws and
regulations. Management must identify significant laws and regulations applicable to
line 3.A, Appropriation, and the key controls in place that ensure compliance.

        d. During an examination, management must provide sufficient and appropriate
evidence and timely support for the auditor’s inquiry, inspection, observation, re-
performance, and confirmation audit procedures. This includes providing accounting
records and original supporting documents, as well as appropriate subject matter experts
on a timely basis. Because an auditor’s knowledge of the accounting systems and
processes, internal controls, and financial statement presentation for appropriation is
limited to that acquired through the audit, management’s complete and timely
cooperation is integral to an efficient and effective audit.

        e. Management is required to sustain audit readiness in future periods for any
business segment validated in accordance with the previously mentioned business rules
under the Financial Improvement and Audit Readiness Plan. Management must present a
written plan for monitoring and sustaining the audit readiness of the validated business
segment in future fiscal years.

Validation of Management’s Assertion of Audit Readiness

We conducted this attestation engagement from November 2007 through April 2008 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the attestation to obtain sufficient, appropriate evidence
to provide a reasonable basis for our findings and conclusions, based on our attestation
objectives. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions, based on our attestation objectives.

We performed this examination at the Office of the Assistant Secretary of the Air Force
(Financial Management and Comptroller), Budget Management and Execution
Directorate, and at Defense Finance and Accounting Service Denver. At these locations,
we reviewed the design and operation of internal controls over financial reporting for line
3.A, Appropriation, by interviews, examination of reports and other outputs for key
controls, and by re-performance of selected transactions with Air Force and DFAS
personnel. We judgmentally selected the Operation and Maintenance, Military
Personnel, and Research, Development, Testing, and Evaluation appropriations for
examination. The appropriations control analyst in the Office of the Assistant Secretary
of the Air Force (Financial Management) initially records appropriations in the Air Force
budget system. We tested the recorded appropriation amounts by verifying them with the
respective laws enacted by Congress. We also examined applicable U.S. Treasury
warrants and internal funding documents originated by the Office of the Under Secretary
of Defense (Comptroller) supporting these amounts.

The Air Force transmits its budget system amounts to DFAS Denver for entry into the
General Accounting and Finance System - Rehost (GAFS-R), which is the Air Force
accounting system of record. Upon initial request, DFAS Denver was not immediately
                                               4
 able to provide an appropriate level of detail for transactions comprising the reported
balance of line 3.A, Appropriation, as of September 30, 2007. DFAS Denver required 38
days to provide the requested audit evidence in a final form whose sum agreed with line
3.A. This population consisted of thousands of entries, because DFAS Denver allocates
the appropriation amounts to numerous activity groups and subactivity groups for fund
control purposes (to comply with applicable laws and regulations) and records a
substantial number of accounting entries that change allocations at those levels during the
fiscal year. We did not test the propriety of the individual GAFS-R transactions, because
their sum was equal to the total appropriation amount reported on line 3.A, which was
adequate for our attestation purposes. Subsequently, without prior notice to DFAS, we
requested a detailed report of transactions comprising the reported balance of line 3.A,
Appropriation, as of March 31, 2008. DFAS provided this population within 2 working
days. We also obtained written affirmation from management that the procedures for
producing this information are standardized such that it can be readily produced on a
timely basis in the future. Our testing and other procedures did not identify any
significant deficiencies or material misstatements related to management’s
responsibilities with respect to its assertion of audit readiness for line 3.A, Appropriation,
reported in the Air Force General Fund Combined Statement of Budgetary Resources.




                                              5
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Defense Financial Auditing Service prepared this report. Personnel of the Department of
Defense Office of Inspector General who contributed to the report are listed below.

Patricia A. Marsh
Amy J. Frontz
M. James Herbic
William F. Lanyi
Jacob R. Newell
Christopher S. Yablonski
Ellen Kleiman-Redden
